Appendix

A-1

Case: 19-10846

Date Filed: 09/08/2020

Page: 1 of 11

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-10846
Non-Argument Calendar
________________________
D.C. Docket No. 1:18-cr-20810-KMM-1

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JEAN DENIS PAUL,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(September 8, 2020)
Before WILLIAM PRYOR, Chief Judge, JILL PRYOR and GRANT, Circuit
Judges.
PER CURIAM:

A-1

Case: 19-10846

Date Filed: 09/08/2020

Page: 2 of 11

Jean Denis Paul appeals his convictions and 120-month total sentence for
possession of a firearm by a convicted felon and possession with intent to
distribute marijuana. He argues that his felon-in-possession conviction is invalid
under Rehaif v. United States, 139 S. Ct. 2191 (2019), because his indictment, the
government’s proof at trial, the district court’s jury instructions, and the jury
verdict all omitted an essential element of the crime—that Paul knew of his status
as a convicted felon prohibited from possessing a firearm. He further argues that
because he had already been sentenced to 24 months in prison following the
revocation of his supervised release for the same conduct, his convictions violated
the Double Jeopardy Clause and his sentences exceeded the maximum provided by
statute for the offenses. After a careful review of the record and the parties’ briefs,
we affirm.
I.
In 2014, Paul pleaded guilty to possessing a firearm as a convicted felon, in
violation of 18 U.S.C. § 922(g). The district court sentenced him to 41 months’
imprisonment followed by three years of supervised release. In 2018, after he
completed his sentence of imprisonment but while still serving his term of
supervised release, Paul was arrested for (among other things) the offenses at issue
here: possession of a firearm by a convicted felon and possession with intent to
distribute marijuana. The district court held a supervised release revocation
A-2

Case: 19-10846

Date Filed: 09/08/2020

Page: 3 of 11

hearing and determined that Paul had violated the terms of his supervised release in
a number of ways, including by committing the new offenses. The court therefore
revoked his supervised release and sentenced him to 24 months in prison followed
by an additional term of supervised release.
A few months after the supervised release revocation, a federal grand jury
considered evidence of the same criminal conduct forming the basis for the
revocation of Paul’s supervised release and returned a three-count indictment
charging him with possession of a firearm and ammunition by a convicted felon, in
violation of 18 U.S.C. § 922(g)(1) (Count 1); possession with intent to distribute a
controlled substance (marijuana), in violation of 21 U.S.C. § 841(a)(1) (Count 2);
and possession of a firearm in furtherance of a drug trafficking crime, in violation
of 18 U.S.C. § 924(c)(1)(A)(i) (Count 3). As to Count 1, the indictment charged
that Paul, “having been previously convicted of a crime punishable by
imprisonment for a term exceeding one year, did knowingly possess a firearm and
ammunition in and affecting interstate and foreign commerce, in violation of Title
18, United States Code, Section 922(g)(1).”
Paul pleaded not guilty and proceeded to trial. During trial, the government
entered into evidence a stipulation between the parties stating that Paul had been
convicted of a felony in 2015, three years before the charged offense. A copy of

A-3

Case: 19-10846

Date Filed: 09/08/2020

Page: 4 of 11

Paul’s 2015 Florida judgment of conviction for possession of a firearm as a
convicted felon was attached to the stipulation.
After the close of evidence, the district court instructed the jury on the
elements of the crimes charged. The court instructed the jury that to find Paul
guilty on the felon-in-possession charge, it had to find beyond a reasonable doubt
that “[f]irst, the defendant knowingly possessed a firearm or ammunition, in or
affecting interstate or foreign commerce; and two, before possessing the firearm or
ammunition, the defendant had been convicted of a felony, a crime punishable by
imprisonment for more than one year.” The jury found Paul guilty on Counts 1
and 2 but acquitted him on Count 3.
The district court imposed the statutory maximum sentence of imprisonment
on each count: 120 months on Count 1 and 60 months on Count 2, to be served
concurrently with each other and consecutively with the remainder of Paul’s 24month sentence on the revocation of his supervised release. See 18 U.S.C.
§ 924(a)(2); 21 U.S.C. § 841(b)(1)(D). Paul now appeals.
II.
In his first three enumerations of error, Paul challenges his conviction for
possession of a firearm as a convicted felon, arguing that his indictment was
fatally flawed because it did not charge him with knowledge of his status as a
felon who was prohibited from possessing a firearm under § 922(g)(1), and that
A-4

Case: 19-10846

Date Filed: 09/08/2020

Page: 5 of 11

the district court erred by failing to require the government to prove that he knew
his status and by omitting the knowledge requirement as an element of the crime
in its instruction to the jury. Ordinarily, we review de novo whether there is
sufficient evidence to support a conviction, whether the district court misstated the
law in its jury instruction, and whether an indictment is sufficient. United States
v. Baston, 818 F.3d 651, 660 (11th Cir. 2016); United States v. Joseph, 709 F.3d
1082, 1093 (11th Cir. 2013); United States v. Steele, 178 F.3d 1230, 1233 (11th
Cir. 1999). Because Paul raises these challenges for the first time on appeal,
however—and because, as we have recently explained, the failure to allege
knowledge of felon status in the indictment is a nonjurisdictional issue—we
review for plain error. 1 United States v. Moore, 954 F.3d 1322, 1332, 1336–37
(11th Cir. 2020); see United States v. Reed, 941 F.3d 1018, 1020 (11th Cir. 2019).
To meet the plain-error standard for reversal, an appellant must show that an
error occurred that was plain and that affected his substantial rights. Reed, 941
F.3d at 1021. And for us to conclude that an error affected his substantial rights,
he must show a reasonable probability that, but for the error, the outcome of the

1

Although Paul did make a sufficiency of the evidence challenge below, he “failed to raise the
specific challenge to the sufficiency of the evidence that he now raises on appeal.” United States
v. Baston, 818 F.3d 651, 663 (11th Cir. 2016). At trial, he challenged the sufficiency of the
evidence as it relates to the possession element of the crime—not to his knowledge of his status
as a convicted felon. “When a defendant raises specific challenges to the sufficiency of the
evidence in the district court, but not the specific challenge he tries to raise on appeal, we review
his argument for plain error.” Id. at 664.
A-5

Case: 19-10846

Date Filed: 09/08/2020

Page: 6 of 11

proceeding would have been different. Molina-Martinez v. United States, 136 S.
Ct. 1338, 1343 (2016). “If he does so, we may, in our discretion, correct the plain
error if it seriously affects the fairness, integrity, or public reputation of judicial
proceedings.” Reed, 941 F.3d at 1021 (alterations adopted and internal quotation
marks omitted). We may consult the whole record when considering the effect of
an error on a defendant’s substantial rights. Id.
Section 922(g)(1) prohibits the possession of firearms or ammunition by any
person who has been convicted of a crime punishable by imprisonment for more
than one year. A defendant who “knowingly” violates § 922(g) is subject to up to
ten years’ imprisonment. Id. § 924(a)(2). “In a prosecution under 18 U.S.C.
§ 922(g) and § 924(a)(2), the Government must prove both that the defendant
knew he possessed a firearm and that he knew he belonged to the relevant category
of persons barred from possessing a firearm.” Rehaif, 139 S. Ct. at 2200. The jury
may infer a defendant’s knowledge of his status from circumstantial evidence. See
id. at 2198 (citing Staples v. United States, 511 U.S. 600, 615 n.11 (1994)); United
States v. Bates, 960 F.3d 1278, 1296 (11th Cir. 2020).
We agree that Paul’s indictment was defective under Rehaif because it failed
to charge that Paul “knew he belonged to the relevant category of persons barred
from possessing a firearm”—here, convicted felons. Rehaif, 139 S. Ct. at 2200;
see Moore, 954 F.3d at 1332–33, 1337. But that defect was not a jurisdictional
A-6

Case: 19-10846

Date Filed: 09/08/2020

Page: 7 of 11

one. See Moore, 954 F.3d at 1332–33, 1337; see also United States v. Cotton, 535
U.S. 625, 630 (2002) (defects in an indictment do not deprive a court of its power
to adjudicate a case). Paul’s argument that his indictment failed to charge a federal
crime in Count 1 because it omitted the knowledge-of-status requirement is
foreclosed by our decision in Moore. In that case, we held that an indictment
that—like Paul’s—cited to and tracked the language from 18 U.S.C. § 922(g)(1)
was sufficient to charge the federal crime of possession of a firearm by a convicted
felon, and that the failure to allege that the defendant knew of his status as a
convicted felon did not deprive the district court of jurisdiction. Moore, 954 F.3d
at 1332–33, 1337.
And while we recognize in hindsight that the failure to require the
government to prove that Paul knew that he was a convicted felon and the
omission of the knowledge element from the indictment, the jury charge, and the
verdict all constituted error under Rehaif, Paul cannot meet the plain-error
standard for reversal because he cannot show any reasonable probability that the
outcome of his trial would have been different if the errors had not occurred. See
Reed, 941 F.3d at 1021. The record leaves no doubt that Paul knew of his status
as a convicted felon.2 Paul stipulated to the fact that he had been convicted of a

2

Paul’s argument that Rehaif also requires proof that he knew the law—that is, that he knew
that, as a felon, he was prohibited from possessing a firearm—is not well taken. Rehaif did not
alter the longstanding principle that where “a defendant has the requisite mental state in respect
A-7

Case: 19-10846

Date Filed: 09/08/2020

Page: 8 of 11

crime punishable by a term of imprisonment in excess of one year. The judgment
of conviction for the prior felony—a copy of which was entered into evidence at
trial—showed that Paul had pleaded guilty in 2015 to the state crime of
possession of a firearm by a convicted felon. Because Paul admitted to being a
convicted felon in connection with that plea, there is no reasonable argument that
he was unaware of his felony status in 2018 when he committed the instant
offense. And because the record establishes that Paul knew that he was a felon
and that the government presented sufficient evidence from which the jury could
infer such knowledge, “he cannot prove that the errors affected his substantial
rights or the fairness, integrity, or public reputation of his trial.” Id. at 1022.
III.
Paul also raises two claims related to the revocation of his supervised release
based in part on the same criminal offenses at issue here. First, he argues that his
prosecution in this case was barred by the Double Jeopardy Clause because he had
already been punished for the same conduct when the district court revoked his
supervised release and imposed a 24-month sentence. And second, he contends
that the two-year sentence imposed upon the revocation of his supervised release
ought to count toward the statutory maximum sentences for the offenses

to the elements of the crime but claims to be ‘unaware of the existence of a statute proscribing
his conduct,’” such “‘ignorance of the law’ (or a ‘mistake of the law’) is no excuse.” Rehaif, 139
S. Ct. at 2198 (citations omitted).
A-8

Case: 19-10846

Date Filed: 09/08/2020

Page: 9 of 11

prosecuted here—ten years for possession of a firearm as a convicted felon and
five years for possession with intent to distribute marijuana—so that when the
district court sentenced him to ten years for his firearm offense and five years for
his drug offense, his total sentences for those offenses exceeded the applicable
statutory maximums.
A.
We generally review claims of double jeopardy de novo, but when the issue
was not properly raised in the district court, we review for plain error only. United
States v. Campo, 840 F.3d 1249, 1267 (11th Cir. 2016). The government contends
that Paul failed to preserve his double-jeopardy claim because although Paul raised
the issue himself (during his allocution at sentencing), his appointed counsel did
not. See United States v. LaChance, 817 F.2d 1491, 1498 (11th Cir. 1987) (“the
right to counsel and the right to proceed pro se exist in the alternative,” not
simultaneously); see also S.D. Fla. L.R. 11(d)(4) (“Whenever a party has appeared
by attorney, the party cannot thereafter appear or act on the party’s own behalf”
absent an order of substitution from the court.). We need not decide whether
Paul’s statements on his own behalf preserved the issue for appeal, however,
because his double-jeopardy claim fails under either standard.
The Double Jeopardy Clause provides that no person shall “be subject for
the same offence to be twice put in jeopardy of life or limb.” U.S. Const. amend.
A-9

Case: 19-10846

Date Filed: 09/08/2020

Page: 10 of 11

V. “This protection applies both to successive punishments and to successive
prosecutions for the same offense.” United States v. Woods, 127 F.3d 990, 991
(11th Cir. 1997).
Punishment imposed upon the revocation of supervised release is a
modification of the sentence imposed for the original offense; it is not punishment
for the conduct that violated the terms of supervised release. See Johnson v.
United States, 529 U.S. 694, 700 (2000); see also Woods, 127 F.3d at 992 & n.1
(discussing the revocation of probation and noting that “within the framework of
the Double Jeopardy Clause, there is no substantive distinction between revocation
of probation and supervised release”). There is no violation of the Double
Jeopardy Clause, therefore, when a defendant is prosecuted and punished for
criminal offenses that also led to the revocation of a term of supervised release
imposed for an earlier, separate offense. See Johnson, 529 U.S. at 700; Woods,
127 F.3d at 992. Because Paul’s earlier 24-month sentence was attributable to the
offense for which supervised release was imposed—the 2014 firearm offense—
Paul’s prosecution and sentencing for the 2018 drug and firearm offenses were not
barred by the Double Jeopardy Clause.

A-10

Case: 19-10846

Date Filed: 09/08/2020

Page: 11 of 11

B.
For similar reasons, we reject Paul’s contention that his sentences exceeded
the relevant statutory maximums.3 The sentence of imprisonment imposed
following the revocation of supervised release constituted a modification of the
sentence for Paul’s 2014 firearm offense, not punishment for the conduct that
violated the terms of his supervised release. See Johnson, 529 U.S. at 700; Woods,
127 F.3d at 992. Accordingly, when the district court sentenced him for the 2018
offenses, Paul had not yet been punished for those crimes, and the sentences
imposed were within (albeit at the upper limit of) the ranges provided by the
applicable statutes. See 18 U.S.C. § 924(a)(2); 21 U.S.C. § 841(b)(1)(D).
IV.
For the foregoing reasons, the Rehaif errors in Paul’s indictment and trial do
not warrant reversal of his § 922(g)(1) conviction under the plain-error standard,
and his sentences did not violate the Double Jeopardy clause or exceed the
applicable statutory maximums. Accordingly, we affirm.
AFFIRMED.

3

Because Paul failed to object to his sentences on this ground in the district court, our review is
for plain error only. See United States v. Rodriguez, 398 F.3d 1291, 1298 (11th Cir. 2005).
A-11

A-12

Case 1:18-cr-20810-KMM Document 59 Entered on FLSD Docket 02/28/2019 Page 1 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 6

UNITED STATES DISTRICT COURT
Southern District of Florida
Miami Division
UNITED STATES OF AMERICA
v.
JEAN DENIS PAUL (01)

JUDGMENT IN A CRIMINAL CASE
Case Number: 1:18CR20810
USM Number: 05573-104
Counsel For Defendant: Ian McDonald, Joaquin Padilla, AFPD
Counsel For The United States: Daniel Cervantes
Court Reporter: Yvette Hernandez

The defendant was found guilty on Counts One and Two of a three-count Indictment.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION
18 U.S.C. § 922(g)(1),
21 U.S.C. § 841(a)(1)

OFFENSE
ENDED

NATURE OF OFFENSE

Possession of a firearm and ammunition by a convicted
05/24/2018
felon
Possession with intent to distribute a detectable amount
05/24/2018
of marijuana

COUNT
1
2

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
Defendant was found Not Guilty of Count Three.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States attorney
of material changes in economic circumstances.

Date of Imposition of Sentence: 2/28/2019

___________________
____________________________________________
K. MICHAEL
C A
MOORE
OO
United States Chief District Judge

Date: ______________________________________


A-12

Case 1:18-cr-20810-KMM Document 59 Entered on FLSD Docket 02/28/2019 Page 2 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: JEAN DENIS PAUL (01)
CASE NUMBER: 1:18CR20810
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of ONE HUNDRED TWENTY (120) MONTHS. This term consists of 120 Months as to each of
Counts One and Two, to be served concurrently with each other, but consecutively to the term imposed in
1:14-CR-20524-Moreno.

The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

A-13

Case 1:18-cr-20810-KMM Document 59 Entered on FLSD Docket 02/28/2019 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: JEAN DENIS PAUL (01)
CASE NUMBER: 1:18CR20810
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of TWO (2) YEARS as to each of
Counts One and Two, to run concurrently.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two
periodic drug tests thereafter, as determined by the court.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with
the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
6. The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of
a felony, unless granted permission to do so by the probation officer;
10.The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of
any contraband observed in plain view of the probation officer;
11.The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
12.The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
13.As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

A-14

Case 1:18-cr-20810-KMM Document 59 Entered on FLSD Docket 02/28/2019 Page 4 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: JEAN DENIS PAUL (01)
CASE NUMBER: 1:18CR20810
SPECIAL CONDITIONS OF SUPERVISION
Anger Control / Domestic Violence - The defendant shall participate in an approved treatment program for anger
control/domestic violence. Participation may include inpatient/outpatient treatment. The defendant will contribute
to the costs of services rendered (co-payment) based on ability to pay or availability of third party payment.
Financial Disclosure Requirement - The defendant shall provide complete access to financial information,
including disclosure of all business and personal finances, to the U.S. Probation Officer.
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a reasonable
manner and at a reasonable time by the U.S. Probation Officer.
Unpaid Restitution, Fines, or Special Assessments - If the defendant has any unpaid amount of restitution, fines, or
special assessments, the defendant shall notify the probation officer of any material change in the defendant’s
economic circumstances that might affect the defendant’s ability to pay.

A-15

Case 1:18-cr-20810-KMM Document 59 Entered on FLSD Docket 02/28/2019 Page 5 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: JEAN DENIS PAUL (01)
CASE NUMBER: 1:18CR20810
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$200.00

Fine
$0.00

**Assessment due immediately unless otherwise ordered by the Court.

A-16

Restitution
$0.00

Case 1:18-cr-20810-KMM Document 59 Entered on FLSD Docket 02/28/2019 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: JEAN DENIS PAUL (01)
CASE NUMBER: 1:18CR20810
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A. Lump sum payment of $200.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney's Office are responsible for the enforcement of this order.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4)
fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution
and court costs.

A-17

